Contrato de Tarjeta de Crédito de Banco Popular de Puerto Rico

POR FAVOR, LEA ESTOS TÉRMINOS Y CONDICIONES CUIDADOSAMENTE Y GUÁRDELOS PARA REFERENCIA FUTURA.
A continuación, encontrará los términos y condiciones de la cuenta rotativa de crédito establecida para usted. Su contrato completo
con nosotros incluye: (1) los términos y condiciones establecidos en este documento y en su solicitud; (2) las Divulgaciones de
Apertura de Cuenta y todas las divulgaciones y materiales que se le proveyeron antes, o en el momento, de abrir su Cuenta; (3)
todos los estados de cuenta; (4) los términos y condiciones, y divulgaciones del programa de recompensas de ser aplicables a su
cuenta; (5) nuestros avisos de privacidad; (6) cualquier otro documento relacionado con su cuenta que enviemos por correo
electrónico o que publiquemos en línea; y (7) cualquier enmienda que hagamos a dichos documentos de cuando en cuando.
El Banco emitirá dos tarjetas de crédito por tarjetahabiente para cuentas Duales y una tarjeta de crédito por tarjetahabiente para
todas las demás cuentas. El uso de las Tarjetas (la tarjeta de crédito que emitimos para que usted tenga acceso a su Cuenta)
constituye una aceptación de este Contrato. Este contrato aplica use usted o no la Tarjeta y continuará aplicando incluso después de
cerrada la Cuenta, siempre y cuando mantenga un balance. Si opta por no aceptar la(s) Tarjeta(s), no debe usarla(s) y debe
notificarlo al Banco no más de 15 días después de recibir este contrato comunicándose con Servicio al Cliente.
Cargo por Seguro: Si usted autorizó inscribirse al seguro de protección de crédito verá reflejado dicho cargo en su estado de cuenta
mensual. El suscribirse a este tipo de seguro es de carácter opcional y no es un requisito o condición para extender el crédito. Usted
puede cancelar este seguro en cualquier momento. Los productos de seguro no son depósitos, no están asegurados ni garantizados
por la FDIC ni por ninguna agencia del gobierno, el Banco o sus afiliadas.
Su Contrato y Compromiso de Pago: Al usar la(s) Tarjeta(s), el número de cuenta o un dispositivo para tener acceso a su Cuenta,
para hacer un pago a la Cuenta o firmar una solicitud para cualquier Tarjeta que le enviemos, usted representa que tiene mayoría de
edad en el estado donde reside y acepta los términos de este Contrato. Usted acepta pagarnos todas las sumas prestadas a su
cuenta, así como los Cargos por Intereses y los cargos según se dispone en este Contrato. Usted acepta indemnizarnos y librarnos
de responsabilidad por daños, pérdidas o gastos ocurridos como resultado del cumplimiento nuestro con sus instrucciones.
¿QUIÉNES FORMAN PARTE DE ESTE CONTRATO?
TÉRMINOS USADOS

LO QUE SIGNIFICAN

CÓMO LE AFECTAN

Usted y su/sus

Todas las personas que
solicitaron la Cuenta o que
son responsables de la
cuenta por cualquier otra
razón y todos los Usuarios
Autorizados.

Si hay Tarjetahabientes conjuntos, cada uno será responsable
individual y conjuntamente por la cantidad completa adeudada
en la Cuenta. Podemos enviar comunicaciones a cualquiera de
los dos; podemos divulgar información sobre la Cuenta a
cualquiera de los dos; y podemos aceptar instrucciones de
cualquiera de los dos (aunque estén en desacuerdo).

Nosotros, nos,
nuestro/nuestros y Banco
Popular

Banco Popular de Puerto
Rico, sus agentes,
representantes autorizados,
sucesores y cesionarios.

Nosotros somos el acreedor de su Cuenta y los emisores de su
Tarjeta.

Usuario Autorizado

Cualquier otra persona a
quien usted le permita usar
la Cuenta.

Un Usuario Autorizado es la persona a la que usted solicitó que
le emitiéramos una Tarjeta que da acceso a su Cuenta o
cualquier persona a la que usted le da su Tarjeta o su Número
de Tarjeta. Usted es responsable por cualquier cargo a su
Cuenta hecho por un Usuario Autorizado, aunque le haya dicho
a esa persona que no hiciera un cargo en específico. Si desea
revocar a un Usuario Autorizado, deberá notificarnos
comunicándose con Servicio al Cliente. Usted es responsable
de recuperar y destruir cualquier Tarjeta, cheque u otro
dispositivo con el que un Usuario Autorizado pueda acceder a
su Cuenta.

¿CÓMO USA USTED SU CUENTA?
Usted puede usar la Cuenta solamente con propósitos personales, familiares o del hogar. Usted no puede usar la Cuenta con
propósitos ilegales ni para juegos de azar por Internet (ni siquiera legalmente). Sin embargo, siempre será responsable de cualquier
transacción que realice, aunque esté en violación de la ley o de este Contrato. Deberá tomar medidas razonables para evitar el uso
no autorizado de su Cuenta. Nosotros podemos convertir su cuenta en cualquiera de nuestras otras cuentas rotativas para la que
usted reúna los criterios de crédito.
TÉRMINOS USADOS

LO QUE SIGNIFICAN

CÓMO LE AFECTAN

Transacciones o Tipos de
Transacciones

Los tipos de transacciones son:
Compras, Adelantos de
Efectivo y Transferencias de
Balance, según se describe a
continuación.

Nosotros no garantizamos que su tarjeta será aceptada
cuando intenta usarla. Usted puede realizar transacciones
usando su Tarjeta, Número de Cuenta u otro dispositivo de
crédito atado a su Cuenta (incluido un dispositivo móvil,
sujeto a los términos y condiciones de ese servicio). Cada
tipo de transacción tendrá su propio balance y puede tener
un Cargo por Intereses separado.
1

Compras

Cuando usa la Tarjeta para
comprar bienes y servicios de
comerciantes que aceptan la
Tarjeta.

El comercio recibirá nuestra autorización o denegación para
hacer cargos a la Cuenta de acuerdo a los términos del
Contrato. Podemos rechazar cualquier solicitud de
autorización de transacción de Compra hecha por un
comerciante a nuestra entera discreción por seguridad y/u
otras razones, aunque haya suficiente crédito disponible en
su Cuenta. No somos responsables de las pérdidas
asociadas con la denegación de una transacción.

Transferencias de Balance y
Cargos

Cuando usted transfiere el
balance de otra Tarjeta de
Crédito.

Permitimos Transferencias de Balance de la mayoría de las
cuentas emitidas por otros bancos, pero no de otras
cuentas o préstamos con nosotros o con cualquiera de
nuestras afiliadas. Cobraremos un cargo por Transferencia
de Balance basado en la cantidad de cada Transferencia
de Balance, según se establece en las Divulgaciones de
Apertura de la Cuenta.

Adelantos de Efectivo y Cargos

Cuando usted obtiene efectivo
o un equivalente con su
Tarjeta.

Las siguientes transacciones se tratarán como Adelantos
de Efectivo: todos los adelantos para obtener efectivo “en el
mostrador”, a través de un cajero automático y otras
transacciones equivalentes a efectivo, como comprar
divisas extranjeras, un giro, cheques de viajero, fichas de
apuesta en casinos o billetes de lotería. Cobraremos un
cargo por adelanto de efectivo basado en la cantidad de
cada Adelanto de Efectivo, según se establece en las
Divulgaciones de Apertura de la Cuenta.

Cheques de Conveniencia y
Cargos

Los cheques provistos por
nosotros para que tenga
acceso a la Cuenta.

La cantidad que escribe en un Cheque de Conveniencia se
añadirá a su balance de Compras (pero no hay periodo de
gracia para evitar los Cargos por Intereses).
Nos reservamos el derecho de no pagar un Cheque de
Conveniencia por cualquier razón. Usted no puede usar un
Cheque de Conveniencia para hacer un pago a la cuenta ni
a ninguna otra cuenta con nosotros. Cobraremos un Cargo
por Cheque de Conveniencia basado en la Cantidad de
cada Cheque de Conveniencia, según se establece en las
Divulgaciones de Apertura de la Cuenta.

Transacciones Recurrentes

Cuando usted autoriza a un
tercero a facturar cargos de
forma recurrente a su Cuenta.

No somos responsables de las transacciones recurrentes a
favor de terceros programadas si su Cuenta se cierra, se
suspende, cambia el número de Cuenta o fecha de
expiración. Usted deberá comunicarse con el tercero para
notificarle el cambio relacionado a su cuenta.

Límite de Crédito
Cuentas no Garantizadas

La cantidad máxima que puede
adeudar en su Cuenta en
cualquier momento, tomando
en consideración su capacidad
crediticia y/o su historial de
pago.

Una cuenta de Tarjeta no garantizada es una Tarjeta cuyo
Límite de Crédito se basa en su capacidad crediticia y/o su
historial de pago. En ese caso le informaremos el total del
Límite de Crédito en su Cuenta cuando le enviemos su
Tarjeta por primera vez y, en lo sucesivo, en cada estado de
cuenta mensual. Podemos establecer un límite menor para
Adelantos de Efectivo. Si en el estado de cuenta no se indica
un límite separado para Adelantos de Efectivo, entonces la
cantidad disponible de su Límite de Crédito para Adelantos
de Efectivo es su Límite de Crédito total. Su Límite de Crédito
y el límite para Adelantos de Efectivo pueden cambiar de vez
en cuando, tomando en consideración su capacidad crediticia
y/o su historial de pago. Podemos cancelar, cambiar o
rescindir su disponibilidad de crédito en cualquier momento.
Le notificaremos de tales cambios en su estado de cuenta o
enviándole un aviso por separado, lo que puede ocurrir
después de que ocurra el cambio.
A nuestra entera discreción, podemos aprobar una
Transacción que cause que el balance de su Cuenta
sobrepase el Límite de Crédito, en cuyo caso usted tiene
que pagar dicho exceso de inmediato como parte de su
Pago Mínimo, pero no consideraremos dicha Transacción
como una solicitud de aumento de su Límite de Crédito ni
renunciamos a ninguno de nuestros derechos al hacerlo.

Promociones u Ofertas
Introductorias

Ofertas especiales
relacionadas con su Cuenta.

En las Divulgaciones de Apertura de la Cuenta se
describen las Tasas de Porcentaje Anual (APR)
Introductorias y los cargos especiales. Cualquier oferta
especial está sujeta a los términos de este contrato, a
2

menos que se especifique otra cosa.
Recompensas

Programa de lealtad vinculado
al uso de su tarjeta de crédito.

Refiérase a los términos y condiciones de su programa de
Recompensas enviados por separado, si aplica.

Transacciones en el Extranjero,
Cargos y Tasa de Intercambio

Las transacciones que tienen
lugar fuera de los Estados
Unidos. Se le facturarán a
usted en Dólares de los
Estados Unidos.

La asociación de tarjetas correspondiente (Visa,
MasterCard o American Express) convertirá todas las
transacciones realizadas en moneda extranjera a dólares
de los Estados Unidos utilizando la tasa establecida por
mandato gubernamental o la tasa al por mayor vigente a la
fecha de procesamiento (que puede ser diferente a la tasa
vigente en la fecha de la transacción). La tasa usada puede
ser diferente a la tasa que la asociación de tarjetas en
efecto reciba. Se aplicará una comisión en Dólares de los
Estados Unidos sobre el monto de la transacción. Véase en
las Divulgaciones de apertura de cuenta en la sección de
cargos la comisión aplicable a la cuenta.

Servicio de “Mobile Wallets”

Servicio de pago provisto por
un tercero/ dispositivo móvil
que le permite realizar compras
o pagos con su tarjeta de
crédito mediante un dispositivo
móvil habilitado con un “Mobile
Wallet”.

Le permite añadir su tarjeta de crédito a una aplicación
usando su dispositivo móvil. Su número de tarjeta de
crédito es remplazado por una clave digital o “token”. Una
vez instalado, usted puede usar su dispositivo móvil para
realizar compras o pagos solamente donde se acepte el
“Mobile Wallet”.

¿QUÉ TIENE QUE PAGAR Y CUÁNDO?
Le enviaremos un estado de cuenta todos los meses a la dirección en archivo mientras haya transacciones o un balance adeudado
durante el ciclo de facturación. Este mostrará el Pago Mínimo y su Fecha de Vencimiento, además de las instrucciones para hacer el
pago.
TÉRMINOS USADOS
Instrucciones de Pago

LO QUE SIGNIFICAN
Las instrucciones en el estado
de cuenta para realizar pagos a
su Cuenta.

CÓMO LE AFECTAN
Usted deberá seguir las instrucciones de pago que
aparecen en el dorso de su Estado de Cuenta Mensual.
Para realizar pagos utilizando un cheque, la cuenta donde
se debitarán los fondos debe ser de una institución
financiera de los Estados Unidos en dólares de Estados
Unidos y a nombre de Banco Popular de Puerto Rico.
Dicho pago deberá ser enviado a la dirección especial que
aparece en el estado acompañado del talonario de pago
correspondiente. Usted nos autoriza a usar información de
su cheque para realizar una única transferencia electrónica
de fondos de la cuenta o para tramitar el pago como una
transacción de cheque. Los pagos electrónicos o enviados
por correo se acreditarán el mismo día en que se reciben si
se reciben, en o antes de las 5:00 p.m. hora Estándar del
Atlántico (AST), de lunes a viernes (exceptuando días
feriados). Los pagos por teléfono se acreditarán el mismo
día en que se reciben si se reciben, en o antes de las 5:00
p.m. hora Estándar del Este (EST), de lunes a viernes
(exceptuando días feriados). El Banco puede tardar hasta
cinco días en tramitar cualquier crédito de otros pagos que
no cumplan con estos requisitos, durante los cuales no se
acumularán intereses. Podemos aceptar y procesar pagos
tardíos, parciales y pagos identificados como “pago en su
totalidad” sin perder nuestros derechos a tenor de este
contrato.
Si se revoca un pago debido a fondos insuficientes o por
cheque devuelto, el banco aplicará a su cuenta una
condición de retención de disponibilidad de su línea de
crédito y usted puede perder cualquier oferta especial de
APR. El resultado de esta retención es que la disponibilidad
de la línea de crédito que resulte de un pago a su cuenta se
atrasará 10 días naturales después de tramitado el pago. La
condición de retención se cancelará después de seis (6)
ciclos de facturación en los que no ocurra una revocación de
pago.

Fecha de Vencimiento de Pago

La fecha para la cual debemos
recibir el Pago Mínimo para
que llegue a tiempo.

Su Estado de Cuenta Mensual identificará la Fecha de
Vencimiento de Pago. Por lo general, será el mismo día de
cada mes, por lo menos, 25 días después del cierre del
ciclo de facturación que aparece en el estado de cuenta.
3

Pago Mínimo

“Skip a Payment”

Pago de Intereses
Periodo de Gracia en Compras

Sin Periodo de Gracia

La cantidad mínima que usted
debe pagar en cada ciclo de
facturación, según se muestra
en el Estado de Cuenta.

Usted acepta pagar por lo menos el Pago Mínimo a su
vencimiento. Sobre balances entre $0.01 hasta $26.99, el
pago mínimo será el balance pendiente. Sobre balances de
$27 o más, el pago mensual mínimo será el 2% del balance
pendiente o el Cargo por Intereses + $10 o una cantidad fija
de $27, lo que sea mayor. El Pago Mínimo puede incluir
cualquier cantidad vencida, el total de cualquier cantidad en
exceso de su límite de crédito, el pago mensual mínimo de
cualquier Plan a Plazos y cualquier Cargo por Pago Tardío.

Podemos ofrecerle, a
discreción nuestra, omitir un
pago mensual mínimo durante
ciertos ciclos de facturación.

Esta oferta solo está disponible para Tarjetas no
Garantizadas. Si usted recibe esta oferta, su estado de
cuenta reflejará un pago mensual mínimo requerido de $0, y
puede que no tenga que realizar el pago mensual mínimo
para ese ciclo de facturación. Si opta por omitir un pago,
continuará acumulando Cargos por Intereses sobre el
balance pendiente de su cuenta durante ese periodo. Sin
embargo, usted siempre puede realizar un pago por
cualquier cantidad. Al final del periodo de omisión de pago,
los términos del Contrato relacionados con el Pago Mínimo
requerido se reanudarán automáticamente. Si tiene un Plan
de Pagos a Plazos, usted tendrá que realizar el(los) pago(s)
mensual(es) correspondiente(s), incluso si acepta la oferta
de “Skip a Payment”.

El periodo de tiempo durante el
cual no se le cobran intereses
sobre las Compras si usted
paga el balance total adeudado
l a tiempo.

No cobraremos intereses desde la fecha que compre
bienes o servicios, si usted paga el balance total adeudado
de su cuenta en o antes de la Fecha de Vencimiento. Si no
paga el balance total adeudado, pero se encuentra en
período de gracia, no pagará intereses sobre el monto
pagado en ese ciclo de facturación. En los ciclos
posteriores usted no tendrá período de gracia hasta que
pague el balance total adeudado en su cuenta durante dos
ciclos de facturación consecutivos. Los balances
relacionados a ciertas ofertas no se toman en cuenta para
determinar si califica para el período de gracia, para las
cuales debe referirse a los términos y condiciones de la
oferta.
Las Transacciones sin Periodo de Gracia comienzan a
acumular intereses en la fecha en que se postean en la
cuenta y siguen acumulando Cargos por Intereses hasta
que se paguen en su totalidad.

No hay periodo de gracia en
Transferencias de Balance,
Cheques de Conveniencia y
Adelantos de Efectivo.

Aplicación de Pagos

La forma en que aplicamos su
pago contra el balance de su
Cuenta.

Si usted realiza el pago mensual mínimo requerido en el
estado mensual, lo aplicaremos en el siguiente orden: contra
el pago mínimo del Plan a Plazos, si aplica, luego contra los
Cargos por Intereses y la cantidad restante se aplicará
primero contra la deuda resultante de las compras y los
adelantos de efectivo con los APR más bajos y luego a la
deuda con los APR más altos en orden ascendente. Por
consiguiente, la deuda con los APR más altos no se reducirá
hasta que se pague en su totalidad la deuda con los APR
más bajos. Si usted paga una cantidad en exceso del pago
mínimo requerido, el exceso se aplicará primero a los
balances con los APR más altos.

Balances en Crédito

Cuando un sobrepago
inesperado es realizado en su
Cuenta.

Podremos rechazar y devolver cualquier pago que
ocasiona un balance en crédito en su Cuenta. De nosotros
permitir cualquier balance en crédito en su Cuenta cuando
un sobrepago inesperado es realizado, usted puede
solicitar un reembolso de los balances en crédito en
cualquier momento. No pagaremos intereses a balances en
crédito en su Cuenta. Si no solicita el reembolso,
aplicaremos los balances en crédito a las transacciones
nuevas, a menos que esté prohibido por ley. Si no realiza
transacciones nuevas en 180 días, le enviaremos el
rembolso.

4

¿EN QUÉ CONSISTEN LOS CARGOS Y CÓMO SE CALCULAN?
TÉRMINOS USADOS
Balance Diario

LO QUE SIGNIFICAN
El balance de cada tipo de
transacción y APR de cada día.

CÓMO LOS CALCULAMOS
Calculamos el Balance Diario usando el balance inicial de
cada tipo de transacción y APR cada día, añadiendo
cualquier transacción nueva y restando cualquier pago y/o
crédito y otros ajustes. Tratamos cualquier balance diario que
sea un balance en crédito como un balance en cero.

Balance Diario Promedio

El promedio del balance de cada
día durante el ciclo de
facturación.

Tasa de Porcentaje Anual
(APR)

La Tasa de Interés de sus
transacciones, según se
establece en las Divulgaciones
de Apertura de la Cuenta.

Tasa Periódica Diaria (DPR)

La tasa diaria de interés que
calculamos.

Calculamos el Balance Promedio Diario sumando todos los
Balances Diarios de cada día del periodo de facturación y lo
dividimos entre el número de días del periodo de facturación.
Los APR son variables y pueden aumentar o disminuir con la
Tasa Preferencial de los Estados Unidos (“Prime Rate”). El
APR se determinará sumando el “Prime Rate”, según
publicado por “The Wall Street Journal”, vigente al momento
de la aprobación de su solicitud a un margen. Para Cuentas
no garantizadas y si usted reside en Puerto Rico o en las
Islas Vírgenes Americanas, el margen aplicable a sus tipos
de transacción dependerá de historial de crédito al momento
de la aprobación de su solicitud. Para empleados de Popular
Inc. o de alguna de sus subsidiarias y si usted reside en las
Islas Vírgenes Británicas, el APR se determinaría
sumando el “Prime Rate” vigente al momento de aprobación
de su solicitud a un margen. Para cada ciclo de facturación,
el Cargo por Intereses y el APR se determinarán utilizando el
“Prime Rate” vigente tres días laborables previo al cierre de
su estado de cuenta. En la eventualidad de que “The Wall
Street Journal” no se publicara durante algún periodo,
seleccionaremos una tasa similar. Nosotros podemos
cambiar los márgenes de vez en cuando para transacciones
nuevas previa notificación.
Calculamos los intereses usando el método de tasa periódica
diaria. La tasa periódica diaria para un balance dado es igual
al APR de ese balance dividido entre 365 y redondeado hacia
arriba según permitido por ley.

Cargos por Intereses

La cantidad que le cobramos por
su crédito en cada tipo de
transacción.

Añadimos los Cargos por Intereses a la Cuenta sumando los
Cargos por Intereses al Balance de cada tipo de transacción
y al APR al cual aplica. (Por ejemplo, sumamos los Cargos
por Intereses en Compras al Balance de Compras.)
Calculamos el Cargo por Interés aplicando el DPR de cada
tipo de transacción y el APR al Balance Promedio Diario de
ese tipo de transacción. Multiplicamos el resultado por el
número de días en el ciclo de facturación. Eso nos da el total
de los Cargos por Intereses de ese tipo de transacción para
ese periodo de facturación.
Los Cargos por Adelantos de Efectivo, Transferencias de
Balance y Cheques de Conveniencia se suman a balance
correspondiente, todos los demás Cargos se añaden al
balance de Compras.

¿QUÉ SUCEDE SI PAGA TARDE?
Si paga la cantidad del Pago Mínimo a la Fecha de Vencimiento de Pago, no pagará penalidades. Usted debe pagar a tiempo.
PENALIDAD
Cargo por Pago Tardío

LO QUE SIGNIFICA
El cargo que cobraremos cada
vez que pague tarde.

LO QUE LE COBRAREMOS
Si el pago está atrasado, podemos cobrarle un Cargo por
Pago Tardío por la cantidad establecida en las
Divulgaciones de Apertura de la Cuenta. En ningún caso, el
Cargo por Pago Tardío sobrepasará la cantidad del Pago
Mínimo vencido.

Cargo por Cheque Devuelto

El cargo que se cobra cuando
Podemos cobrarle un cargo cuando el pago por cheque es
el pago por cheque es devuelto devuelto por la cantidad establecida en las Divulgaciones de
por fondos insuficientes.
apertura de Cuenta.

5

¿QUÉ OTROS CARGOS PUEDEN APLICAR?
Puede haber ocasiones en que las circunstancias tengan como resultado el cobro de una comisión o alguna otra acción sobre la
Cuenta. En las Divulgaciones de apertura de Cuenta se enumera el monto de estas comisiones. Todas esas comisiones se añadirán
al balance de Compras, a menos que se indique otra cosa. Es posible que apliquen comisiones adicionales por concepto de
servicios especiales que usted solicite. Se le notificará el monto de dicha comisión al momento de dicha solicitud.
COMISIÓN
Cuota Anual

LO QUE SIGNIFICA
Un cargo que podemos
cobrarle anualmente por la
cuenta.

LO QUE LE COBRAREMOS
Si aplica, el cargo anual se reflejará en el primer estado de
cuenta después de emitida la primera Tarjeta y,
subsiguientemente, en cada aniversario de apertura de la
cuenta.

Cargo por Reimpresión del
Estado de cuenta

Usted puede solicitar una copia Podemos añadir un Cargo de $2.50 por Reimpresión de
de su estado de cuenta.
cada Estado de Cuenta a su balance de compras si usted
solicita una copia de su estado mensual.

Cargo por Orden de Tarjeta
Urgente

Usted puede solicitar que se le
envíe una Tarjeta nueva o de
reemplazo de forma expedita.

Añadiremos un cargo de $25 al balance de Compras si
solicita que se le envíe una Tarjeta nueva o de reemplazo
de forma expedita.

¿COMO PODEMOS HACER CAMBIOS?
Es posible que tengamos una serie de razones por las cuales sea necesario que realicemos cambios a este Contrato y a los
términos de su Cuenta de tiempo en tiempo. Podemos efectuar estos cambios según lo permita la ley. Recibirá un aviso por escrito
en el que se explica cómo aplican los cambios.
TIPO DE CAMBIO

QUÉ PUEDE PROVOCAR EL
CAMBIO
Durante el primer año, cuando
termina una APR Introductorio o
la Tasa Preferencial cambia.
Después de eso, por cualquier
razón.

NOTIFICACIÓN PREVIA

Aumento o disminución de las
líneas de crédito

Cualquier razón.

Ninguna

Algunos cargos y otros
términos

Cualquier razón.

Hasta 45 días para ciertos cambios en Cargos y Pago
Mínimo.

Aumentos de APR sobre
transacciones nuevas

No hay aviso cuando terminan los APR Introductorios.
Para otros aumentos, 45 días.

¿QUÉ SUCEDE SI…?
LO QUE USTED DEBE
HACER

CÓMO LE AFECTA

Se pierde o le roban la Tarjeta
o si la Cuenta se ve
comprometida por fraude

Comuníquese de inmediato
con nosotros y deje de utilizar
la Cuenta. Comuníquese con
nosotros a la dirección o al
número de teléfono que
aparece en el estado de
cuenta o en el dorso de la
Tarjeta.

Usted no será responsable del uso no autorizado que ocurra
después de que nos lo notifique. Sin embargo, usted puede
ser responsable del uso no autorizado que ocurra antes de
que nos lo notifique. De cualquier modo, su responsabilidad
no excederá los $50.

La Cuenta es cerrada o
suspendida

Usted deberá pagar las
Usted sigue siendo responsable del balance.
cantidades adeudadas de
conformidad con este Contrato.

Si ha cambiado su nombre,
dirección, número de teléfono,
dirección de correo electrónico
u otra información.

Notifíquenos cualquier cambio.

También podemos pedirle que nos provea información
financiera actualizada suya y usted acepta hacerlo.

SERVICIO DE “MOBILE WALLETS”
LO QUE
SIGNFICA
Una forma de
realizar compras
o pagos usando
un dispositivo
móvil

LO QUE USTED ACEPTA
Usted puede optar por añadir su número de tarjeta de crédito a un Servicio de “Mobile Wallet”. Si lo hace,
usted reconoce que no somos los proveedores del “Wallet”, que no controlamos el dispositivo y que no somos
responsables de falla alguna o incapacidad de realizar una transacción utilizando el “Wallet”. Nosotros
solamente somos responsables de proveer la información de forma segura al proveedor del “Wallet” para
permitir el uso de su tarjeta de crédito en el “Wallet”. Nos reservamos el derecho de definir la elegibilidad del
producto. Usted acepta que tal uso de su cuenta estará sujeto a todos los términos y condiciones incluidos en
este Contrato. Las APR de Compras serán aplicables a las compras realizadas mediante el Servicio de
“Mobile Wallet”. Usted reconoce que pueden aplicar ciertas tasas por mensajería y datos por parte de sus
6

operadores y/o proveedores de servicio inalámbrico que pueden tener un impacto en su uso del “Wallet”. Por
ejemplo, su operador o proveedor de servicio móvil puede imponer cargos por el uso de datos o texto, por su
uso de, o interacción con, el “Wallet”, incluido descargar la programación, recibir o enviar mensajes de texto u
otro uso de su dispositivo móvil cuando use la programación u otros productos o servicios provistos por el
“Wallet”. Usted acepta expresamente que es responsable de todos esos cargos, limitaciones y restricciones y
que nosotros podemos comunicarnos con usted a través de su dispositivo móvil para cualquier propósito
relacionado con su cuenta con nosotros, incluido el servicio de la cuenta y para propósitos de cobro. Nosotros
no controlamos la privacidad ni la seguridad de la información suya que pueda estar en poder del proveedor
del “Wallet” y eso está regido por la política de privacidad del proveedor del “Wallet”. Usted acepta no dejar
desatendido su Dispositivo Móvil mientras esté conectado con el “Wallet” y desconectarse de inmediato toda
vez que complete cada acceso que realice. Usted acepta no proveerle su contraseña ni ninguna otra
información de acceso a otra persona. Si piensa que alguien puede obtener acceso no autorizado a su
Dispositivo Móvil, usted acepta cancelar de inmediato el acceso al “Wallet” asociado con el Dispositivo Móvil.
Usted acepta proveernos aviso inmediato en caso de que sospeche fraude o algún acceso no autorizado a
alguna de sus cuentas. Usted acepta tomar todas las precauciones para garantizar la seguridad y la
integridad de la cuenta y de las transacciones cuando use el “Wallet”. Salvo que la ley requiera otra cosa,
nosotros podemos, a nuestra entera discreción, cambiar estos términos y modificar o cancelar su elegibilidad
para usar la tarjeta a través de un servicio del “Wallet” en cualquier momento, sin aviso. Usted no puede
cambiar estos términos, pero puede darlos por terminados eliminando su tarjeta del servicio del “Wallet”.
Nosotros nos reservamos el derecho de rechazar cualquier transacción por cualquier razón.
Usted entiende y acepta expresamente que su uso de un servicio de “Mobile Wallet””es a su entero riesgo.
Cualquier material que descargue o que, de algún modo, obtenga mediante el uso del “Wallet” lo obtiene a su
entera discreción y riesgo, y nosotros no somos responsables de daño alguno a su dispositivo móvil ni por
pérdida de datos como resultado de la descarga de dicho material, ya sea debida a un virus de computadora
o de otra cosa. No hacemos representación ni damos garantía de cuán completa, precisa, confiable o
actualizada sea la información o los datos que usted obtenga mediante el uso de un servicio de billetera.
¿CUALES SON NUESTROS DERECHOS SI USTED INCUMPLE O TENEMOS UNA DISPUTA?
Su incumplimiento

Arbitraje de Disputas

Una Cuenta estará en incumplimiento si usted:
1) no realiza el Pago Mínimo a la fecha de vencimiento; 2) viola cualquier otra disposición de
este Contrato; 3) estimamos que no está dispuesto o no es capaz de pagar sus deudas a
tiempo; 4) se acoge a quiebra; o 5) se incapacita o muere.
Si su Cuenta está en incumplimiento, podemos cerrarla o terminar o suspender sus privilegios
de crédito sin aviso y requerir de inmediato el pago total del balance pendiente.
También podemos comenzar gestiones de cobro. En la medida en que lo permita la ley, si usted
está en incumplimiento porque no nos ha pagado, le exigiremos que nos pague los costos por el
cobro, honorarios de abogado, costas legales y todos los demás gastos por ejercer nuestros
derechos a tenor de este contrato.
Este Contrato contiene una Disposición de Arbitraje a continuación. En el plazo de los 90
días posteriores a la fecha de apertura de su Cuenta, usted puede optar por rechazar la
Disposición de Arbitraje, proporcionando un aviso por escrito de su intención de hacerlo
a la dirección: División Legal (745), el Banco Popular de Puerto Rico, PO Box 362708, San
Juan, Puerto Rico 00936-2708. A menos que usted someta su rechazo, o en la medida en
que lo permita la ley aplicable, la Disposición de Arbitraje tendrá un impacto sustancial
sobre la manera en que se resuelva cualquier reclamación legal que tengamos
mutuamente, ya sea que usted o nosotros optemos por el arbitraje. Por ejemplo, las
disputas sujetas a arbitraje son resueltas por un árbitro neutral y no por un juez ni un
jurado. Esta Disposición de Arbitraje no aplica a o no se invocará contra, los prestatarios
cubiertos bajo la protección del “Military Lending Act”. Esta Disposición de Arbitraje no
le impide a usted iniciar o participar en una acción de clase ante un tribunal.

DISPOSICIÓN DE ARBITRAJE
RENUNCIAS IMPORTANTES: SI USTED O NOSOTROS OPTAMOS POR RECURRIR AL ARBITRAJE DE UNA
RECLAMACIÓN, TANTO USTED COMO NOSOTROS RENUNCIAMOS AL DERECHO DE: (1) PERMITIR QUE UN TRIBUNAL O
UN JURADO RESUELVA LA RECLAMACIÓN; (2) PARTICIPAR EN UNA ACCION DE CLASE EN UN TRIBUNAL O EN
ARBITRAJE, YA SEA COMO UN REPRESENTANTE DE CLASE, MIEMBRO DE LA CLASE O DE CUALQUIER OTRA FORMA,
O ACTUANDO COMO UN REPRESENTANTE (“PRIVATE ATTORNEY GENERAL”) EN EL TRIBUNAL O EN ARBITRAJE (LA
“RENUNCIA A ACCION DE CLASE”); (3) UNIR O CONSOLIDAR RECLAMACION(ES) CON OTRAS RECLAMACIONES QUE
ENVUELVAN A OTRAS PERSONAS; O (4) OBTENER INFORMACIÓN, SALVO COMO AQUÍ SE DISPONE. OTROS
DERECHOS ESTÁN MÁS LIMITADOS EN ARBITRAJE QUE EN EL TRIBUNAL O NO ESTÁN DISPONIBLES EN ARBITRAJE.
DEFINICIONES – En esta Disposición de Arbitraje, aplicarán las siguientes definiciones:
“Administrador” significa, según aplique, la American Arbitration Association (la “AAA”) o J.A.M.S./Endispute (“JAMS”) o, si
la AAA y JAMS no pueden o no están dispuestos a servir, un administrador de arbitraje acordado por las partes o designado por
un tribunal, siempre y cuando el Administrador no tenga instituida una política formal o informal incompatible con, y que aparente
hacer caso omiso de, los términos de esta Disposición de Arbitraje. Usted puede optar por seleccionar el Administrador cuando dé
aviso por escrito de optar por el arbitraje de la Reclamación o en el plazo de los 20 días posteriores a que le entreguemos dicho
aviso por escrito. De otro modo, nosotros seleccionaremos al Administrador.
7

“Reclamación” significa cualquier reclamación, disputa o controversia legal entre usted y nosotros que surja de o se relacione de
algún modo con este Contrato o la cuenta de tarjeta de crédito, incluido: (i) los costos o cargos que nosotros u otras partes
impongamos en relación con este Contrato o la cuenta de tarjeta de crédito o las demás disposiciones de este Contrato; (ii) el
interés, si alguno, pagado en la cuenta de tarjeta de crédito; (iii) cualquier solicitud, divulgación u otro documento relacionado, de
algún modo, con este contrato; (iv) cualquier servicio o producto ofrecido o puesto a disposición por nosotros o por medio de
nosotros en conexión con este contrato, incluidos cualquier costo, cargo, términos o divulgaciones asociadas; (v) cualquier
documento, instrumento, material publicitario o promocional que contenga información sobre este Contrato o cuenta de tarjeta de
crédito, o cualquier otro servicio o producto; y (vi) las relaciones resultantes de cualquiera de los anteriores. Esto incluye, pero no
se limita a, disputas relacionadas con alegado fraude o falsa representación, incumplimiento de contrato, negligencia o violación
de estatuto, reglamentación o derecho consuetudinario; y disputas relacionadas con solicitudes de interdicto u otro remedio en
equidad. Sin embargo, “Reclamación” no incluye: (a) pleito individual alguno incoado por usted en un tribunal que dilucida casos
de menor cuantía (small claims court) o un tribunal equivalente en su estado, salvo que dicho pleito sea trasladado, removido o
apelado en un tribunal diferente; (b) cualquier disputa o controversia sobre la validez, aplicabilidad, cobertura o alcance de esta
Disposición de Arbitraje o cualquier parte de la misma (incluyendo sin limitación, la renuncia a una acción de clase establecida a
continuación, subpartes (A) y (B) de la parte titulado “Sobrevivencia, Primacía y Separabilidad” y/o en esta oración); toda estas
disputas o controversias deben ser resuelta por un tribunal y no un árbitro (pero cualquier impugnación sobre este Contrato en su
conjunto es para ser resuelta por un árbitro y no un tribunal; o (c) cualquier ejercicio que hagamos de nuestro derecho de
compensación por las cantidades que nos adeude contra las cantidades que tenga depositadas con nosotros o cualquier proceso
judicial incoado por usted para impedir el ejercicio de dicho derecho.
COMENZAR EL ARBITRAJE – Para iniciar el arbitraje, usted o nosotros debemos dar aviso por escrito de la decisión de optar por
el arbitraje. Este aviso puede darse después de entablada una demanda y puede darse en papeles o mociones en la demanda,
como una moción para obligar el arbitraje. Incluso, aun cuando todas las partes han optado por litigar una Reclamación en el
tribunal, usted o nosotros podemos elegir el arbitraje con respecto a cualquier Reclamación realizada por una nueva parte o
cualquier Reclamación posteriormente presentada por una de las partes o cualquier demanda relacionada o no (incluyendo una
Reclamación presentada de manera individual que posteriormente es modificada a ser una acción de clase, representante o de
múltiples partes). Nada en ese litigio constituirá una renuncia de cualquier derecho bajo esta Disposición de Arbitraje. Si se
comunica la elección de arbitraje, la Reclamación deberá resolverse por arbitraje a tenor de esta disposición de arbitraje y de las
reglas aplicables del Administrador en efecto al momento. El árbitro será seleccionado a tenor de las reglas del Administrador,
salvo que el árbitro debe ser un abogado con, por lo menos, 10 años de experiencia o un juez retirado, a menos que usted y
nosotros acordemos de otro modo.
UBICACIÓN Y COSTAS – Cualquier audiencia de arbitraje a la que usted asista se llevará a cabo en una ubicación
razonablemente conveniente para usted. Tomaremos en consideración (y, por lo general, aceptaremos) cualquier solicitud de
buena fe para asumir los costos del Administrador y el árbitro o los árbitros. Cada una de las partes pagará sus propios gastos;
disponiéndose que, si perdemos, también pagaremos todos los costos del Administrador y el árbitro o los árbitros y todos los
honorarios razonables de sus abogados. En todos los casos, pagaremos todos los cargos y costos (incluidos los honorarios de
abogado) que se nos requiera pagar a tenor de la ley aplicable y/o para que podamos hacer valer esta Disposición de Arbitraje.
DESCUBRIMIENTO; OBTENCIÓN DE INFORMACIÓN – Cualquiera de las partes puede obtener, previo a la audiencia,
información disponible de la otra parte a tenor de las reglas del Administrador o cualquier información que el árbitro determine que
deba hacerse disponible.
EFECTO DE LA ADJUDICACIÓN DEL ARBITRAJE – Cualquier tribunal con jurisdicción puede pasar juicio sobre la adjudicación
del árbitro. La adjudicación del árbitro será final y firme, salvo: (1) cualquier derecho de apelación a tenor de la Federal Arbitration
Act, 9 U.S.C. §§1 et seq. (la “ley FAA”); y (2) Reclamaciones de más de $50,000. Para las Reclamaciones de más de $50,000,
cualquiera de las partes puede apelar la adjudicación ante un panel de tres árbitros designado por el Administrador, que
reconsiderará, de novo, cualquier aspecto de la adjudicación inicial apelada. La decisión del panel será final y firme, salvo
cualquier apelación a tenor de la ley FAA.
LEY RECTORA – Esta Disposición de Arbitraje se establece de conformidad con una transacción de comercio interestatal y se
regirá por la ley FAA, y no por ley estatal alguna relacionada con el arbitraje, disponiéndose que la ley de Nueva York aplicará en
la medida en que cualquier ley estatal o territorial sea pertinente en la determinación de la posibilidad de hacer valer esta
Disposición de Arbitraje a tenor de la Sección 2 de la ley FAA. El árbitro se regirá por la ley sustantiva aplicable en la medida en
que ésta sea compatible con la ley FAA, los estatutos aplicables de limitación y las reglas aplicables de privilegio, y tendrá
autoridad para adjudicar todos los remedios permitidos que aplicarían bajo ley aplicable a una acción individual presentada ante el
tribunal, incluyendo, pero sin limitarse a, daños compensatorios, estatutarios y punitivos (sujetos a los límites constitucionales que
aplicarían en un tribunal), remedios declaratorios, interdictales y otros remedios en equidad (pero solo a favor de la parte
individual que busca remedio y solo en la medida necesaria para proporcionar el remedio justificado por la Reclamación individual
de esa parte), honorarios de abogado y costas legales. Tras la solicitud puntual de cualquiera de las partes, el árbitro redactará
una explicación breve sobre la base de su adjudicación. El árbitro seguirá las reglas de procedimiento y evidencia de conformidad
con la ley FAA, esta Disposición de Arbitraje y las reglas del Administrador.
SOBREVIVENCIA, PRIMACÍA, SEPARABILIDAD– Esta Disposición de Arbitraje sobrevivirá el cierre de su cuenta de tarjeta de
crédito; nuestra venta o transferencia de nuestros derechos a tenor de este contrato; cualquier procedimiento legal o derecho de
compensación para el recobro de una deuda contraída por usted; o cualquier quiebra o insolvencia. En caso de conflicto o
inconsistencia entre esta Disposición de Arbitraje y las reglas del Administrador o este Contrato, prevalecerá y regirá esta
Disposición de Arbitraje. Si alguna parte de esta disposición de arbitraje no puede hacerse valer en un procedimiento entre usted
y nosotros, el resto de la Disposición de Arbitraje continuará en vigor, excepto que: (A) la Disposición de Arbitraje entera (excepto
esta oración) deberá ser nula si la renuncia a la acción de clase se considera inválida respecto a cualquier Reclamación de clase
o representación en un procedimiento entre usted y nosotros, sujeto a cualquier derecho de apelar dicha decisión, y (B) si se
presenta una Reclamación en busca de un remedio extraordinario de interdicto público y un tribunal determina que las
restricciones en la renuncia de acción de clase u otras partes de esta Disposición de Arbitraje que prohíben al árbitro otorgar
remedios en beneficio de terceros no son exigibles con respecto a tal Reclamación (y esa determinación se convierte final luego
de que se hayan agotado todos los derechos de apelar la decisión), la Reclamación un remedio extraordinario de interdicto
público será determinado en el tribunal y cualquier Reclamación individual solicitando compensación monetaria será arbitrada. En
tal caso, las partes solicitarán que el tribunal suspenda la Reclamación para un remedio extraordinario de interdicto público hasta
8

tanto la indemnización arbitral correspondiente al remedio extraordinario de interdicto haya sido presentada en el tribunal. En
ningún caso, una Reclamación solicitando un alivio para toda la clase o para un remedio extraordinario de interdicto será mediante
arbitraje.
INCUMPLIMIENTO DEL CONTRATO DE ARBITRAJE – Si alguna de las partes no se somete a arbitraje después de que se le
exija hacerlo de forma apropiada, esa parte asumirá todas las costas y los gastos, incluidos honorarios razonables de abogado,
incurridos por la otra parte para procurar que se obligue al arbitraje.
Cómo comunicarse con los Administradores de Arbitraje
Si tiene alguna pregunta sobre los administradores de arbitraje mencionados en esta Disposición de Arbitraje o quisiera obtener
una copia de sus Reglas de Arbitraje o Lista de Costos, puede comunicarse con ellos como se indica a continuación: American
Arbitration Association, 120 Broadway, Floor 21, New York, N.Y 10271, www.adr.org, (800) 778-7879. Reglas Comerciales o
del Consumidor, J.A.M.S./Endispute, 71 S. Wacker Drive Suite 3090, Chicago, IL 60606; www.jamsadr.com (800) 352-5267,
Reglas y Procedimientos de Arbitraje de Servicios Financieros.
¿QUÉ OTROS TÉRMINOS APLICAN A NUESTRA RELACIÓN?
Cerrar la Cuenta

Puede cerrar la Cuenta en cualquier momento notificándonoslo ya sea por escrito a la dirección,
o por teléfono al número que aparece en el Estado de Cuenta Mensual. No aceptaremos ningún
Cheque de Conveniencia ni autorizaremos ninguna transacción después de cerrada la Cuenta.
Podemos cerrar o suspender su Cuenta por cualquier motivo, incluidos, entre otros: asuntos
operacionales la Cuenta está en incumplimiento o por sospecha de actividad fraudulenta o ilegal.
Si lo hacemos, no podrá utilizar su Tarjeta ni ningún cheque que hayamos emitido. Usted sigue
siendo responsable de cualquier balance en la cuenta, el cual continuará acumulando Cargos por
Intereses y otros Cargos y permanecerá sujeto a todos los términos de este Contrato.

Privacidad

El Aviso de Privacidad de Popular, Inc. (nuestra compañía matriz) explica cómo recopilamos y
compartimos su información.

Comunicaciones

Podemos enviarle Tarjetas, estados de cuenta y otras comunicaciones a cualquier dirección
postal o dirección de correo electrónico en nuestros archivos. También podemos enviar un correo
electrónico a cualquier dirección donde estimemos que podemos razonablemente comunicarnos
con usted. Al suministrar un número de teléfono celular, de otro dispositivo inalámbrico o de línea
terrestre que fuera convertido luego a inalámbrico, usted consiente expresamente a recibir
información a ese número, incluidas, pero sin limitarse a, llamadas de voz pregrabada o artificial,
mensajes de texto y llamadas realizadas por un sistema de discado telefónico automático del
Banco Popular y sus afiliadas, agentes o cesionarios. Si el dispositivo inalámbrico no está
registrado a su nombre, usted manifiesta que es el usuario primario y que tiene autoridad para
proveer este consentimiento. Este consentimiento expreso aplica a cada uno de dichos números
telefónicos que nos provea ahora o en el futuro y permite tales llamadas independientemente del
propósito. Algunos de los propósitos legales de las llamadas y mensajes incluyen: sospecha de
fraude o robo de identidad, obtener información, transacción o servicio de la cuenta, cobro de la
cuenta y proveerle información sobre productos y servicios. Estas llamadas y mensajes pueden
provocar gastos de acceso de su proveedor de servicio celular.
Notifíquenos de inmediato cualquier cambio en su información de contacto utilizando la dirección
o el número de teléfono que aparece en el estado de cuenta.

Monitorización Telefónica

Podemos escuchar y grabar las llamadas telefónicas entre nosotros y usted.

Información de Crédito

Podemos obtener y revisar su historial de crédito u otra información sobre usted de cualquier
agencia de información de crédito y otros, incluida la información relacionada con el
procesamiento, establecimiento, servicio y el cobro de la Cuenta. También pudiéramos obtener
un reporte de crédito adicional u otra información sobre usted relacionado a la misma transacción
o extensión de crédito con el propósito de realizar gestiones de cobro de su Cuenta, o cualquier
otro propósito legitimo asociado con su cuenta. Usted puede solicitar que le indiquemos si se
obtuvo su reporte de crédito y de ser así, le informaremos el nombre y dirección de la agencia de
información de crédito utilizada.
Podemos reportar información sobre usted y su Cuenta a las agencias de información de crédito
y otros. Pagos en atraso, falta de pago y/u otros incumplimientos en su cuenta pueden reflejarse
en su informe de crédito. De usted no cumplir con su obligación crediticia, pudiéramos reportar a
las agencias de crédito información a las agencias de información de crédito sobre esta Cuenta a
nombre de un usuario autorizado. Se estima que hemos dado información incorrecta, escribanos
a la dirección que aparece en el estado de cuenta e investigaremos.

Hacer Valer Nuestros
Derechos

Podemos optar por retrasar el hacer valer cualquiera de nuestros derechos o renunciar a alguno
de ellos a tenor de este Contrato. Podemos optar por retrasar el hacer valer cualquiera de
nuestros derechos o renunciar a alguno de ellos sin que se afecten nuestros demás derechos. Si
renunciamos a algún derecho, no necesariamente estamos renunciando al mismo derecho en
otra circunstancia.

Ley Aplicable

Este Contrato y la Cuenta se regirán por la ley federal y, en la medida en que aplique una ley
estatal o territorial, las leyes del Estado Libre Asociado de Puerto Rico, y estas leyes aplicarán sin
importar dónde usted viva o use esta Cuenta.
9

Enmiendas

Podemos cambiar o terminar todo o cualquier parte de este Contrato, incluidos los APR y los
Cargos, en cualquier momento. Podemos, además, añadir nuevos términos o eliminar términos.
Cualquier cambio se efectuará de conformidad con la ley aplicable y lo informaremos según lo
requiera la ley.

Cesión

Podemos vender, ceder o transferir el Contrato y la Cuenta o cualquier parte de estos sin
informárselo y el comprador, cesionario o beneficiario de una transferencia tendrá los mismos
derechos que tenemos a tenor de este Contrato. Usted no puede vender, ceder ni transferir la
Cuenta.

Separabilidad

Salvo como se dispone específicamente en la sección de arbitraje, si se determina que alguna
disposición de este Contrato es nula y no puede hacerse valer a tenor de la ley, regla o
reglamento, todas las demás disposiciones de este Contrato seguirán siendo válidas y podrán
hacerse valer.

Restricciones de Uso

Banco Popular puede restringir el uso de la Tarjeta en cualquier jurisdicción o país en donde
dicho uso sea contrario a una ley o reglamento de los EE.UU. o se identifique que representa un
alto riesgo de fraude.

Aviso sobre Derechos y Protecciones bajo la Ley de Préstamos para Militares (Military Lending Act)
Si eres personal militar activo o en servicio activo, o su cónyuge o los dependientes del personal militar en servicio activo podrán
ser elegibles a ciertas protecciones legales de acuerdo a las disposiciones de la Ley de Préstamos para Militares (MLA, por sus
siglas en inglés) [32 CFR Part 232]. La siguiente declaración solo aplica si eres un deudor protegido (covered borrower) según las
definiciones de la Ley Préstamos para Militares (MLA, por sus siglas en inglés) [32 CFR Sección 232].
La ley federal provee protecciones importantes para los miembros de las Fuerzas Armadas y sus dependientes con relación al
otorgamiento de crédito de consumo. En general, el costo del crédito de consumo cobrado a un miembro de las Fuerzas Armadas
y su dependiente no podrá exceder una tasa de porcentaje anual de 36%. Esta tasa debe incluir, según aplique a la cuenta o
transacción de crédito: los costos relacionados a las primas de seguros de crédito; los cargos por productos adicionales o
complementarios vendidos como parte de la transacción de crédito; cualquier cargo cobrado por solicitud (aparte de ciertos cargos
para cuentas o transacciones de crédito especificadas); y cualquier cuota de participación cobrada (aparte de ciertas cuotas de
participación para cuentas de tarjetas de crédito). Si usted desea obtener esta divulgación oralmente, puede llamar libre de cargos
al número 1-844-773-6499.
SUS DERECHOS DE FACTURACIÓN – Conserve este documento para referencia futura
Este aviso le informa sobre sus derechos y nuestras responsabilidades a tenor de la Fair Credit Billing Act.
Qué hacer si encuentra un error en su estado de cuenta
Si piensa que hay un error en su estado de cuenta, escríbanos a la dirección que aparece en el estado de cuenta. En la carta,
provea la siguiente información.
• Información de la cuenta: Su nombre y número de cuenta.
• Cantidad en dólares: La cantidad en dólares del error que sospecha.
• Descripción del problema: Si piensa que hay un error en su factura, describa lo que estima que está incorrecto y por qué
estima que es un error.
Usted deberá comunicarse con nosotros:
• En el plazo de los 60 días después de que el error aparezca en su estado de cuenta.
• Por lo menos 3 días laborables antes de programado un pago automático, si quiere detener el pago de la cantidad que
estima incorrecta.
Usted deberá notificarnos, por escrito, cualquier posible error. Puede llamarnos, pero si lo hace, no estamos obligados a
investigar algún posible error y puede que usted tenga que pagar la cantidad en cuestión.
Qué sucede después de que recibamos su carta
Cuando recibamos su carta, deberemos hacer dos cosas:
1. En el plazo de los 30 días de recibir su carta, deberemos informarle que hemos recibido la carta. También le informaremos
si hemos corregido el error.
2. En el plazo de los 90 días de recibir su carta, deberemos corregir el error o explicarle por qué entendemos que la factura
está correcta.
Mientras investigamos si se ha cometido un error o no:
• No podemos intentar cobrar la cantidad en cuestión, ni informar que usted está en mora de dicha cantidad.
• El cambio en cuestión puede permanecer en el estado y podemos continuar cobrándole intereses sobre dicha cantidad.
• Si bien no tiene que pagar la cantidad en cuestión, usted es responsable del resto del balance.
• Podemos aplicar cualquier cantidad no pagada contra su límite de crédito.
Después de concluida nuestra investigación, sucederá una de dos cosas:
• Si cometimos un error: Usted no tendrá que pagar la cantidad en cuestión ni los intereses ni otros cargos relacionados con
dicha cantidad.
• Si no entendemos que cometimos un error: Usted tiene que pagar la cantidad en cuestión, así como los intereses y los
cargos aplicables. Le enviaremos un estado de cuenta que refleje la cantidad adeudada por usted y la fecha de vencimiento
de pago. Podemos, entonces, informar que usted está en mora si no paga la cantidad que estimamos que usted adeuda.
10

Si recibe nuestra explicación, pero aun así, piensa que su factura está incorrecta, deberá escribirnos en el plazo de 10 días
informándonos que todavía se niega a pagarnos. Si lo hace, no podemos informar que usted está en mora sin informar, además,
que usted cuestiona su factura. Deberemos informarle el nombre de cualquiera a quien hayamos informado que usted está en
mora y deberemos darle a conocer a dichas organizaciones cuando se resuelva el problema entre nosotros.
Si no seguimos todas las reglas establecidas previamente, usted no tiene que pagar los primeros $50 de la cantidad que
cuestionó, incluso si su factura está correcta.
Sus derechos si está insatisfecho con sus compras con tarjeta de crédito
Si está insatisfecho con los bienes o servicios que ha comprado con su tarjeta de crédito, y ha intentado de buena fe corregir el
problema con el comerciante, puede que usted tenga derecho a no pagar el resto de la cantidad adeudada de la compra.
Para ejercer este derecho, todo lo siguiente debe ser cierto:
1. La compra deberá haberse efectuado en su estado (o territorio) de residencia o dentro de las 100 millas de su dirección de
facturación actual y el precio de compra debe haber sido más de $50. (Nota: Ninguna de estas dos cosas son necesarias si
su compra se basó en una promoción que le enviamos por correo, o si somos los propietarios de la compañía que vendió
los bienes o servicios.)
2. Usted deberá haber utilizado su tarjeta de crédito para efectuar la compra. Las compras efectuadas con Adelantos de
Efectivo sacados de un cajero automático (ATM) o con un cheque con acceso a su cuenta de tarjeta de crédito no califican.
3. Usted no deberá haber pagado aún la compra en su totalidad.
Si se ha cumplido con todos los criterios esbozados aquí previamente y todavía usted está insatisfecho con la compra,
comuníquese con nosotros por escrito a la dirección que aparece en su estado de cuenta.
Mientras investigamos, las mismas reglas esbozadas anteriormente aplican a la cantidad en disputa. Después de concluida
nuestra investigación, le informaremos nuestra decisión. En ese momento, si entendemos que adeuda alguna cantidad y usted
no paga, podemos informar que está en mora.

11

